               Additional Efforts Are Needed to Improve the
                 Bank Secrecy Act Compliance Program

                                    March 2004

                       Reference Number: 2004-30-068




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      March 12, 2004


       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Additional Efforts Are Needed to Improve the
                                     Bank Secrecy Act Compliance Program (Audit # 200330004)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Bank Secrecy Act (BSA)1 Compliance Program. This is one of three Treasury Inspector
       General for Tax Administration audit reports on the IRS’ anti-money laundering (AML)
       and BSA compliance programs. The overall objective of this review was to determine
       whether the IRS effectively administers a program that ensures compliance with BSA
       reporting requirements.
       In summary, the BSA was designed to assist in the detection and prevention of criminal
       activity by creating paper trails from financial institutions back to criminal organizations.
       It authorizes the Department of the Treasury to require banks and other financial
       institutions to retain designated financial transaction records that the Secretary deems
       useful in criminal, tax, and regulatory investigations. In response to the tragic events of
       September 11, 2001, the Congress passed and the President signed into law the United
       and Strengthening America by Providing Appropriate Tools Required to Intercept and
       Obstruct Terrorism (USA PATRIOT) Act of 2001.2 This new law made changes to the
       BSA, effectively including financial institutions in the war on terrorism.
       The two components of the Department of the Treasury with significant responsibilities
       for the administration of the BSA are the IRS and the Financial Crimes Enforcement
       Network (FinCEN). The Department of the Treasury relies on the expertise and


       1
         Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
       15 U.S.C., and 31 U.S.C.). Regulations for the BSA and other related statutes are found in 31 C.F.R.
       § 103.11-103.77 (2000).
       2
         Pub. L. No. 107-56, 115 Stat. 321-327 (2001).
                                                          2


resources of each bureau to perform the many functions necessary to carry out the
purposes of the BSA.
The authority to examine Nonbank Financial Institutions (NBFI) for BSA compliance has
been delegated to the IRS pursuant to 31 C.F.R. § 103.56(b)(8)3 and under Treasury
Directive 15-41 (December 1, 1992). The IRS is responsible for examining NBFIs for
compliance with the BSA’s reporting, record keeping, and compliance program
requirements. NBFIs include the following financial institutions:
    •    Over 160,000 Money Services Businesses, comprised of such diverse financial
         service providers as check cashers; currency exchangers or dealers; issuers,
         sellers, and redeemers of traveler’s checks, money orders, and stored value; and
         money transmitters.
    •    Approximately 600 casinos or other gaming organizations located in some
         30 states and territories and on tribal lands.
The events of September 11, 2001, and the enactment of the USA PATRIOT Act
increase the significance of the IRS BSA compliance program. With this increased
focus on compliance with the BSA, it is important for the IRS to administer its BSA
program as efficiently and effectively as possible.
Overall, the IRS has improved its BSA compliance program since our last review, but
the risk of undetected noncompliance still exists. Specifically, the program does not
have meaningful performance measures, management information system data are not
fully analyzed, and case selection is not risk-based. Further, cases do not contain the
documentation necessary to assess civil penalties, examiners cannot access
Suspicious Activity Reports (SAR) for better case development, and education and
outreach should be better coordinated with the FinCEN.
We recommended the Director, Reporting Enforcement, Compliance, Small
Business/Self-Employed (SB/SE) Division, establish measurable performance-based
indicators, ensure the management information system provides useful analytical
reports for monitoring program performance, and develop standardized risk-based case
selection criteria. We also recommended the Director reinforce the importance of good
case documentation, provide additional instructions and case models, implement a
centralized quality review process, and coordinate with the FinCEN to secure access to
SARs. In addition, we recommended the Director, Taxpayer Education and
Communication (TEC), SB/SE Division, coordinate with the FinCEN on education and
outreach strategies to avoid duplication of efforts.



3
  31 C.F.R. § 103.56(b)(8) (2002) provides that the authority to examine institutions to determine compliance with
the requirements of Part 103 is delegated “[t]o the Commissioner of Internal Revenue with respect to all financial
institutions, except brokers or dealers in securities, not currently examined by federal bank supervisory agencies for
soundness and safety.” The definition of gaming entities and money services business entities as financial
institutions subject to BSA requirements, and the content of the various reporting, record keeping, and compliance
program requirements applicable to such entities under the BSA, are contained at 31 C.F.R. Part 103.
                                            3


Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations. In October 2003, the SB/SE Division began the process of
developing performance measures in accordance with the IRS’ Embedded Quality
Measures process. These program measures will conform to the Balanced Measures
concept. The BSA compliance program has also added a senior program analyst to
analyze and report program results to the Director, Compliance on a monthly basis.
Additionally, the SB/SE Division Research function is developing a scoring system, or
set of rules, to prioritize the BSA compliance program workload. The BSA compliance
program hired two technical advisors to assist the field offices with case quality.
Common examination issues will be periodically published on the AML website.
Management is also participating in a study to measure the effectiveness of recently
conducted training.
The Commissioner, SB/SE Division, recognized the importance of securing access to
SARs for BSA examiners and revenue agents in the regular examination program and
has initiated a Memorandum of Understanding with the Director of the FinCEN to permit
BSA examiner access. IRS senior executives will continue to pursue access to SARs
for revenue agents in the regular Examination function. The Director, TEC, SB/SE
Division, has partnered with key FinCEN personnel and will continue partnering through
periodic meetings to discuss priorities and overall coordination of outreach efforts. The
FinCEN also received a copy of the TEC national AML strategy for Fiscal Year 2004 for
review and comment. This helps ensure the SB/SE Division’s overall AML strategy
parallels the FinCEN’s priorities and prevents duplicative efforts. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
                 Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                      Compliance Program




                                                  Table of Contents


Background ............................................................................................... Page 1
Measurable Performance Indicators and Better Use of Management
Information System Data Are Needed ....................................................... Page 3
         Recommendations 1 and 2: .......................................................... Page 10

Risk-Based Case Selection, Improved Documentation, and Access
to Additional Tools Are Needed ................................................................. Page 10
         Recommendations 3 and 4: .......................................................... Page 14
         Recommendation 5: ...................................................................... Page 15

Better Coordination With the Financial Crimes Enforcement
Network Is Needed .................................................................................... Page 15
         Recommendation 6: ...................................................................... Page 16

Few Referrals Were Made to the Financial Crimes Enforcement
Network for Civil Penalty Consideration .................................................... Page 16
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 18
Appendix II – Major Contributors to This Report........................................ Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Bank Secrecy Act Violations and Penalties........................ Page 22
Appendix V – History of the Bank Secrecy Act .......................................... Page 26
Appendix VI – Management’s Response to the Draft Report .................... Page 28
             Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                  Compliance Program

                                 The Bank Secrecy Act (BSA)1 was designed to assist in the
Background
                                 detection and prevention of criminal activity by creating
                                 paper trails from financial institutions back to criminal
                                 organizations. It authorizes the Department of the Treasury
                                 to require banks and other financial institutions to retain
                                 designated financial transaction records that the Secretary
                                 deems useful in criminal, tax, and regulatory investigations.
                                 The two components of the Department of the Treasury with
                                 significant responsibilities for the administration of the BSA
                                 are the Internal Revenue Service (IRS) and the Financial
                                 Crimes Enforcement Network (FinCEN). The Department
                                 of the Treasury relies on the expertise and resources of each
                                 bureau to perform the many functions necessary to carry out
                                 the purposes of the BSA. See Appendix V for a brief
                                 history and purpose of the BSA.
                                 The authority to examine Nonbank Financial Institutions
                                 (NBFI) has been delegated to the IRS pursuant to
                                 31 C.F.R. § 103.56(b)(8)2 and under Treasury
                                 Directive 15-41 (December 1, 1992). The IRS is
                                 responsible for examining NBFIs for compliance with the
                                 BSA’s reporting, record keeping, and compliance program
                                 requirements. NBFIs include the following financial
                                 institutions:
                                     •   Over 160,000 Money Services Businesses (MSB),
                                         comprised of such diverse financial service
                                         providers as check cashers; currency exchangers or
                                         dealers; issuers, sellers, and redeemers of traveler’s
                                         checks, money orders, and stored value; and money
                                         transmitters.

                                 1
                                   Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended
                                 in scattered sections of 12 U.S.C., 15 U.S.C., and 31 U.S.C.).
                                 Regulations for the BSA, and other related statutes, are found in
                                 31 C.F.R. § 103.11-103.77 (2000).
                                 2
                                   31 C.F.R. § 103.56(b)(8) (2002) provides that the authority to examine
                                 institutions to determine compliance with the requirements of Part 103
                                 is delegated “[t]o the Commissioner of Internal Revenue with respect to
                                 all financial institutions, except brokers or dealers in securities, not
                                 currently examined by federal bank supervisory agencies for soundness
                                 and safety.” The definition of gaming entities and money services
                                 business entities as financial institutions subject to BSA requirements,
                                 and the content of the various reporting, record keeping, and compliance
                                 program requirements applicable to such entities under the BSA, are
                                 contained at 31 C.F.R. Part 103.
                                                                                                 Page 1
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                        •    Approximately 600 casinos or other gaming
                             organizations located in some 30 states and
                             territories and on tribal lands.
                    The IRS BSA compliance program has two essential
                    functions: (i) identification of those financial institutions
                    subject to the BSA requirements (and thus compliance
                    checks) because they fall within the definitions contained in
                    31 C.F.R. Part 1033 and (ii) performance of an examination,
                    review, or other type of audit activity to assess compliance
                    with the BSA. An examination also provides the
                    opportunity to give useful feedback to the financial
                    institution and to assure corrective action has been taken
                    with respect to any compliance program deficiencies or any
                    violations of the BSA (e.g., with respect to reports not being
                    filed timely or records not being maintained). Examinations
                    for BSA compliance may result in referrals to the Criminal
                    Investigation (CI) function for tax evasion or money
                    laundering investigations when appropriate.4 The results of
                    BSA compliance efforts by field resources are reported
                    quarterly to the Director, Reporting Enforcement,
                    Compliance, Small Business/Self-Employed (SB/SE)
                    Division.
                    Prior to September 11, 2001, the BSA was already one of
                    the main Federal laws requiring monitoring of financial
                    information. In response to the events of
                    September 11, 2001, the Congress passed and the President
                    signed into law the United and Strengthening America by
                    Providing Appropriate Tools Required to Intercept and
                    Obstruct Terrorism (USA PATRIOT) Act of 2001.5 This
                    new law made changes to the BSA, effectively including


                    3
                      Certain financial institutions have a Federal functional regulator such
                    as the Securities and Exchange Commission, the Office of the
                    Comptroller of the Currency, or the other Federal financial regulators;
                    these agencies charter, insure, or otherwise regulate a defined universe
                    of financial institutions. In the case of MSBs and casinos, no such
                    Federal functional regulator exists.
                    4
                      In Fiscal Year (FY) 2000, 596 civil tax cases resulting from leads from
                    BSA examinations were resolved; 14 of these cases were referred for
                    criminal investigation. In FY 2001, 526 civil tax cases resulting from
                    leads from BSA examinations were resolved; 22 of these cases were
                    referred for criminal investigation.
                    5
                      Pub. L. No. 107-56, 115 Stat. 321-327 (2001).
                                                                                     Page 2
              Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                   Compliance Program

                                  financial institutions in the war on terrorism. The USA
                                  PATRIOT Act expands the Federal Government’s role and
                                  gives more monitoring responsibilities to individual
                                  financial institutions. The IRS, as part of its modernization
                                  program, has given responsibility for its BSA compliance
                                  efforts to the SB/SE Division’s Anti-money Laundering
                                  (AML) Program.
                                  We performed this audit during the period February through
                                  September 2003 in the SB/SE Division’s
                                  New Carrollton, Maryland, Headquarters Office and
                                  its Los Angeles and San Jose, California;
                                  New York, New York; and Philadelphia, Pennsylvania,
                                  field offices. The audit was performed in accordance with
                                  Government Auditing Standards. Detailed information on
                                  our audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  In a prior audit report,6 we described how the IRS needed to
Measurable Performance
                                  improve its program for ensuring compliance with BSA
Indicators and Better Use of
                                  reporting requirements and improve controls over the
Management Information System
                                  program to reasonably ensure the achievement of program
Data Are Needed
                                  objectives. The report concluded that without changes there
                                  is a significant risk of undetected noncompliance and
                                  increasingly inconsistent program delivery. We
                                  recommended the IRS:
                                      •   Strengthen the oversight of the BSA compliance
                                          program.
                                      •   Develop and deliver an educational/information
                                          package to a larger number of businesses covered by
                                          the IRS BSA compliance program.
                                      •   Improve field manager accountability for program
                                          objectives.
                                      •   Establish measurable performance indicators.
                                      •   Improve tracking of results.



                                  6
                                   The Program for Ensuring Compliance With Anti-Money Laundering
                                  Reporting Requirements Should Be Improved
                                  (Reference Number 2001-40-024, dated December 2000).
                                                                                           Page 3
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                       •   Increase the number of IRS employees in the
                           program.
                       •   Ensure BSA examiners receive sufficient training.
                    During this review, we evaluated the effectiveness of the
                    IRS’ corrective actions to our recommendations. We
                    determined the IRS has made some changes to its BSA
                    compliance program in response to our December 2000
                    audit report, but risks continue to confront the program. To
                    strengthen oversight of the BSA compliance program, the
                    IRS established a national Program Manager position. To
                    educate businesses that might be covered by the IRS BSA
                    compliance program, the FinCEN, through a contractor,
                    developed and distributed an education/information package
                    to approximately 10,000 potential MSBs.
                    To improve field manager accountability, the BSA
                    established dedicated groups; examiners in these groups will
                    work only AML cases and managers will be accountable for
                    program results. Prior to the establishment of dedicated
                    groups, most BSA compliance reviews were collateral
                    assignments.
                    To improve examiners’ skills, the BSA compliance program
                    revised its training program and has trained most of the
                    participants since 2002. Prior to 2002, the program had not
                    provided training for a number of years. BSA training was
                    provided to approximately 200 examiners in 2002. Training
                    consisted of basic compliance check classes, specialized
                    classes for casino compliance checks, and classes for
                    managers. Dedicated BSA compliance groups should
                    enhance managerial and examiner skills by working these
                    cases daily.
                    To increase the number of employees in the BSA
                    compliance program, the IRS entered into an interagency




                                                                         Page 4
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    agreement with the FinCEN. Hiring of 70 additional
                    examiners and staff began in September 2002.7
                    While these changes have enhanced the BSA compliance
                    program, our follow-up review determined the IRS did not
                    effectively implement corrective actions to two
                    recommendations in our December 2000 audit report.
                    The BSA compliance program needs to establish
                    meaningful performance measures and goals
                    Our December 2000 audit report recommended the BSA
                    program establish measurable performance indicators. To
                    date, though, the BSA compliance program has only one
                    measurable goal: delivery of Direct Examination Staff
                    Years (DESY). To accomplish this goal, the IRS need only
                    assign sufficient personnel to the program to meet the
                    allocated DESYs. There are no other measures for
                    evaluating the program’s performance.
                    According to the Government Performance and Results Act
                    of 1993 (GPRA),8 management must establish performance
                    goals to define the level of performance to be achieved by a
                    program activity, and these goals should be stated in an
                    objective, quantifiable, and measurable form. Since DESYs
                    are quantifiable and measurable, they meet this requirement.
                    However, the GPRA also states that performance indicators
                    should be used in measuring or assessing the relevant
                    outputs, service levels, and outcomes of each program
                    activity. The measure of DESYs applied to the BSA
                    compliance program does not assess the relevant outputs or
                    outcomes of the program.



                    7
                      IRS personnel, particularly for BSA examination and antimoney
                    laundering positions, require a significant amount of training because
                    such positions perform more complex and sophisticated functions.
                    Preferably, hiring for BSA examination positions would occur through
                    the hiring of experienced IRS examiners. However, the IRS has
                    experienced hiring challenges in recent years, which have affected its
                    ability to staff the BSA compliance program as quickly as desired. With
                    a number of the program changes identified in the narrative above, the
                    IRS is increasing its efforts to bring on the additional examiners needed
                    for expanded MSB examinations.
                    8
                      Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                    sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                     Page 5
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    In our December 2000 audit report, we recommended the
                    program establish measurable performance-based indicators
                    for BSA activities in accordance with GPRA guidance.
                    Management responded that there is a misconception about
                    not having performance indicators. According to
                    management’s response,
                           Management has program expectations and
                           deliverables; however, the sensitivity over the misuse
                           of statistics may have contributed to this perception
                           of a lack of indicators. The mission of our AML
                           program is identification, notification, and
                           enforcement. To accomplish this mission, the Fiscal
                           Year (FY) 2001 plan includes 173 full time
                           employees devoted to the AML program nationwide.
                    We continue to believe the IRS should establish
                    performance measures that gauge the program’s activities
                    and productivity. For instance, goals should measure more
                    than the delivery of DESYs or the number of cases closed.
                    Rather, goals should measure case results and their
                    cumulative effect on compliance. Once appropriate
                    measures are chosen, they should act as a common focus for
                    management to target problem areas, highlight successes,
                    and generally increase the rate of performance improvement
                    through enhanced learning.
                    While measures have value as stand-alone indicators, they
                    are typically used together to present a more complete
                    picture of key mission delivery processes. Without
                    performance measures, managers often have great difficulty
                    getting results from information systems because they
                    cannot define their needs precisely. These types of
                    measures would assist management in determining whether
                    resources are efficiently applied, methods for case selection
                    are effective, and the program’s efforts are positively
                    affecting compliance.
                    Management Information System (MIS) data needs to
                    be used more effectively
                    Analysis of MIS data could help determine the effectiveness
                    of the BSA compliance program. However, the MIS
                    contained inaccurate data. The main function of the
                    stand-alone MIS in FY 2002 was to count cases and

                                                                          Page 6
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    contacts. That MIS did not capture time spent on cases. A
                    new MIS was implemented at the end of FY 2003. AML
                    coordinators were still testing this new MIS at the end of
                    our audit fieldwork in September 2003. The new MIS is
                    designed to capture more information than the previous
                    MIS.
                    According to the General Accounting Office (GAO)
                    Executive Guide for Improving Performance Through
                    Strategic Information Management and Technology
                    (GAO/AIMD-94-115, dated May 1994), agencies need to
                    provide MIS capabilities that support operational
                    performance reporting. Standard measurement practices
                    focus on benefits, costs, and risks. In most cases, this
                    includes program outcomes, resource consumption, and
                    elapsed time (i.e., cycle time) of specific work processes,
                    activities, or transactions. Because of inadequacies in the
                    previous BSA compliance program MIS, managers could
                    not determine the performance of the program.
                    In FY 2002, the MIS data consisted of each Area Office9
                    furnishing a report to the SB/SE Division Headquarters
                    Office showing the number of cases closed and violations
                    identified. These reports were then rolled up into a national
                    report showing nationwide results. We did not identify
                    analysis that compared differences in Area Office
                    effectiveness.
                    To evaluate the program’s effectiveness, we analyzed the
                    number of cases closed and the number of cases with
                    violations. We also selected a judgmental sample10 of cases
                    from three Area Offices and identified the time spent on
                    these cases. Figure 1 shows the results of our review.



                    9
                      In January 2002, the SB/SE Division Compliance function, along with
                    other functions in the IRS, transitioned into a new organizational
                    structure that instituted 16 Area Offices nationally. These Area Offices
                    basically replaced the old district and regional structure. We visited
                    three Area Offices for this review.
                    10
                       We judgmentally selected a sample of 76 cases closed in Calendar
                    Year (CY) 2002 from 3 Area Offices. Areas Offices A and C (48 and
                    412 closed cases in CY 2002, respectively) had full-time BSA
                    Examination groups, and Area Office B (77 closed cases in CY 2002)
                    worked cases as collateral assignments.
                                                                                     Page 7
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    Figure 1: BSA Case Closures and Time Spent on Cases Sampled by
                     the Treasury Inspector General for Tax Administration (TIGTA)

                             Description                 Area         Area         Area
                                                         Office       Office       Office
                                                          A             B           C

                     Total BSA Cases Closed in              48          77          412
                     FY 2002
                     Cases With Violations                  24           8           45
                     Percentage of Cases With              50%         10%          11%
                     Violations
                     Cases Reviewed by the                  24          27           25
                     TIGTA
                     Cases With Time                        23           2           25
                     Documented on the
                     Examiner’s Activity Record
                     Total Hours Spent                    1,392         141        2,181
                     Average Hours Per Case                 61          71           87
                     Reviewed
                     Cases With Violations From             14           0            1
                     the TIGTA’s Sample11
                    Source: BSA compliance program reports and TIGTA analysis of
                    76 BSA compliance cases.
                     Note: Area Office B did not have a full-time AML group. Area
                    Office A had 14 full-time examiners, and Area Office C had 12 full-time
                    examiners.

                    This analysis is an example of information that would be
                    useful to management in determining the results of
                    resources applied to the BSA compliance program.
                    Analysis of information on cases closed and cases with
                    violations would assist management in measuring
                    productivity. While these indicators need not be used to
                    measure individual examiner performance, they are useful
                    in determining best practices and identifying areas for
                    improving the program.


                    11
                      See Appendix IV for BSA violations and the associated penalties that
                    the FinCEN may assess.
                                                                                    Page 8
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    For example, our analysis determined Area Office A
                    identified violations in 50 percent of the cases it closed,
                    while Area Offices B and C identified violations in only
                    10 and 11 percent of their cases, respectively. This type of
                    analysis might lead management to try to determine why
                    more violations are not being identified in Area
                    Offices B and C.
                    Additionally, Area Office C accounted for 76 percent of
                    cases closed in FY 2002 for all 3 Area Offices combined,
                    which might lead management to determine why more cases
                    are not being worked in Area Offices A and B.
                    The prior MIS did not capture time charged on cases. Each
                    examiner should document the amount of time spent on a
                    case in the case file, but time is not charged to individual
                    cases on time reports. For the cases in our sample, we
                    determined the average hours spent on cases in Area
                    Office C from our sample cases were 26 and 16 hours more
                    than for Area Offices A and B, respectively.
                    Also, statistics relating to the number of referrals to the
                    FinCEN for civil penalty consideration and referrals to the
                    CI function were incorrect. AML coordinators submitted
                    quarterly results to the IRS Headquarters, where results
                    were compiled into a nationwide summary. According to
                    the FY 2002 activity report, the BSA compliance program
                    referred seven cases to the CI function and seven cases to
                    the FinCEN. In our efforts to identify these cases, we found
                    that both numbers were incorrect.
                    Management told us that coordinators made errors in the
                    quarterly reporting and reduced referrals to the CI function
                    to three and referrals to the FinCEN to two. We did not
                    verify receipt of these two cases by the FinCEN but
                    accepted the IRS’ claim of two referrals because it provided
                    additional supporting information. An improved MIS could
                    help eliminate future discrepancies.
                    Performance data should be useful, accurate, and timely for
                    managing the program. MIS data should be as useful as
                    possible. Without adequate MIS information, the IRS
                    cannot effectively manage and monitor this program.



                                                                           Page 9
                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                     Compliance Program

                                    Recommendations

                                    The Director, Reporting Enforcement, Compliance, SB/SE
                                    Division, should:
                                    1. Establish measurable performance-based indicators for
                                       the BSA program.
                                    Management’s Response: In October 2003, the SB/SE
                                    Division began the process of developing measures in
                                    accordance with the IRS Embedded Quality Measures
                                    process. A team met to develop AML Program measures
                                    that conform to the Balanced Measures concept.
                                    2. Ensure the new MIS provides accurate and useful
                                       information and analytical reports for better managing
                                       the BSA compliance program.
                                    Management’s Response: A senior program analyst was
                                    added to the BSA compliance program staff and conducted
                                    analyses for FY 2003 and the first quarter of FY 2004.
                                    These analyses were provided to the Director, Compliance,
                                    SB/SE Division, and additional analyses will be provided on
                                    a monthly basis.
                                    Although the IRS recently made several changes to the BSA
Risk-Based Case Selection,
                                    compliance program, there continues to be significant risk
Improved Documentation, and
                                    of undetected noncompliance and inconsistent program
Access to Additional Tools Are
                                    delivery. Based on our review of a judgmentally selected
Needed
                                    sample of 76 cases from 3 Area Offices, standard case
                                    selection criteria are not used, cases are not properly
                                    documented, and potential noncompliance information is
                                    not available.
                                    No standard criteria exist for selecting BSA compliance
                                    cases
                                    We did not identify any standard criteria for case selection
                                    or follow-up compliance visits. AML coordinators use their
                                    own criteria to select cases from an inventory of NBFIs
                                    maintained on a database at the IRS Detroit Computing




                                                                                        Page 10
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    Center.12 None of the locations we visited used a standard
                    case selection process.
                    Per the IRS Strategic Plan 2000-2005, the IRS has limited
                    resources. Therefore it is essential that it apply them where
                    they will be of the most value in reducing noncompliance
                    while ensuring fairness, observing taxpayer rights, and
                    reducing the need to burden those who do comply. A
                    risk-based, data-driven process to select the potentially most
                    noncompliant MSBs for compliance checks could be a more
                    effective selection method than the current processes.
                    Management has not established case selection criteria.
                    Developing a risk-based case selection process will assist in
                    maximizing the IRS’ use of resources. Since resources for
                    this program are limited, the resources need to be applied to
                    areas with the most potential for noncompliance. For
                    instance, follow-up visits could be mandatory for cases in
                    which violations are identified. One coordinator stated there
                    is no time for follow-up visits.
                    Since there are no criteria for case selection, it is possible
                    that the cases with the most potential are not being selected.
                    A risk-based selection process would help ensure cases with
                    the most potential are included in the compliance program.
                    Cases do not contain the documentation necessary to
                    assess civil penalties
                    Review of our judgmental sample of closed cases from three
                    Area Offices determined that documentation frequently did
                    not meet IRS guidelines. In one Area Office, cases were
                    well documented. However, cases in the other two Area
                    Offices did not contain documentation to show the work
                    performed to arrive at the compliance review determination.
                    In some BSA compliance checks, the IRS determines the
                    compliance deficiencies warrant the assessment of civil
                    penalties. These cases are referred to the FinCEN for
                    penalty consideration. The FinCEN has the authority to
                    assess civil penalties for BSA violations by MSBs.


                    12
                      A major computing center performing administrative and tax-related
                    processing for the IRS. It is a vital communication link for all IRS
                    offices nationwide and selected Department of the Treasury
                    installations.
                                                                                 Page 11
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    Appendix IV presents BSA violations and the associated
                    penalties the FinCEN may assess. In addition, the CI
                    function can initiate investigations when criminal activity is
                    involved.
                    IRS guidelines clearly outline case documentation
                    requirements. Figure 2 provides the results of our review of
                    documentation for the 76 cases.
                              Figure 2: Missing Case Documentation in BSA Cases

                          Documentation Required by             Present       Missing
                         the Internal Revenue Manual
                                     (IRM)
                     CI Function Clearance13                       17         59 (78%)
                     Appointment Letter Used to                    43         33 (43%)
                     Contact the NBFI
                     Information Document Request                  38         38 (50%)
                     (Form 4564)
                     Case Activity Record Used to                  70           6 (8%)
                     Record Case History
                     Examination Information Report                15         61 (80%)
                     (Form 5346)
                     Continuation of Examination                   29         47 (62%)
                     Workpapers (Form 4318 A)
                     Memoranda of Interviews                       6          70 (92%)
                     Supporting Workpapers                         51         25 (33%)
                    Source: TIGTA analysis of 76 BSA compliance cases.

                    In the Area Office in which cases were well documented,
                    there were more instances of violations identified.
                    Specifically:
                          •   Area Office A cases were well documented and
                              examiners identified violations in 14 of 24 cases.
                          •   Area Office B and C cases were not documented
                              according to IRM requirements; examiners identified


                    13
                      All proposed BSA examinations must first be cleared through the CI
                    function to avoid compromising ongoing or planned criminal
                    investigations.
                                                                                 Page 12
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                             a violation in only 1 of 52 cases and referred another
                             case to the CI function (see Figure 1).
                    The BSA compliance program also does not have a
                    centralized quality review function to assess case
                    development and identify national issues and trends. One
                    result of poor case documentation is that most cases referred
                    to the FinCEN for civil penalty consideration are not
                    assessed penalties. Of the 3,373 cases examined in
                    FY 2002, only 2 were referred to the FinCEN for civil
                    penalty consideration, and no penalties were assessed. In
                    discussions with FinCEN representatives, we were advised
                    that poor case documentation is a major reason why civil
                    penalties are not being assessed.
                    Examiners do not have access to Suspicious Activity
                    Reports (SAR)
                    BSA examiners14 and revenue agents (RA) in IRS
                    Examination groups15 do not have access to all of the tools
                    that, in our opinion, should be available for their use during
                    BSA and income tax examinations. Specifically, BSA
                    examiners and other RAs do not have access to SARs.
                    Certain MSBs are required to report suspicious activity;16
                    they are to file SARs when transactions that are conducted
                    by, at, or through the MSBs are both suspicious and $2,000
                    or more.17


                    14
                       BSA examiners perform compliance checks under the authorities
                    granted in 31 U.S.C. BSA examiners are essentially working for the
                    Department of the Treasury and thus cannot access tax returns or return
                    information.
                    15
                       Revenue agents, tax auditors, and tax examiners generally conduct
                    examinations of tax returns under the authorities granted by 26 U.S.C.
                    16
                       The requirement that MSBs file SARs applies to money transmitters;
                    currency dealers or exchangers; and issuers, sellers, or redeemers of
                    money orders and traveler’s checks.
                    17
                       MSBs are required to file SARs on individual transactions or series of
                    transactions conducted or attempted by, at, or through the MSBs if both
                    of the following occur: 1) The transaction or series of transactions
                    involves aggregate funds or other assets of $2,000 or more and 2) the
                    MSB knows, suspects, or has reason to suspect that the transaction(s)
                    includes one or more of the following: involves funds from illegal
                    activities, is designed to evade BSA regulations, has no apparent
                    business or lawful purpose, or involves the MSB in facilitating criminal
                    activity.
                                                                                    Page 13
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    At the IRS, only CI function employees have access to
                    SARs. The SARs are the property of the FinCEN, but they
                    are accessible to law enforcement functions in certain
                    agencies. For BSA examiners, case development may be
                    incomplete without SAR information. For RAs, SARs may
                    provide leads for additional areas and issues to review
                    during income tax examinations. According to FinCEN
                    personnel, there are legal issues that must be addressed
                    before granting additional IRS employees access to SARs.
                    FinCEN representatives, however, were agreeable to
                    granting this access for BSA examiners. Granting this
                    access to RAs would be beneficial to tax administration.
                    Without access to this additional case-building tool,
                    employees may not be able to adequately develop and
                    document cases, and the FinCEN may be unable to assess
                    civil penalties when warranted. Access to SARs would
                    allow BSA examiners and RAs to better plan and conduct
                    compliance checks and income tax examinations.

                    Recommendations

                    The Director, Compliance Enforcement, SB/SE Division,
                    should:
                    3. Develop standard risk-based case selection criteria that
                       would provide minimum requirements and parameters
                       for case selection.
                    Management’s Response: The SB/SE Division Research
                    function is developing a scoring system, or set of rules, to
                    prioritize workload by using Currency Banking Retrieval
                    System data. Until the scoring system is implemented,
                    AML coordinators will receive additional oversight to
                    ensure BSA compliance checks are initiated on a risk basis.
                    4. Reinforce the importance of case documentation with
                       specific instructions or case models and implement a
                       centralized quality review process.
                    Management’s Response: Two technical advisors were
                    hired to assist with case quality. Since reporting in
                    July 2003, these new advisors have reviewed cases in
                    process to provide feedback and assisted in Area Office
                    operational reviews. A periodic publication will also be
                                                                         Page 14
               Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                    Compliance Program

                                   added to the AML web site to address common examination
                                   issues. A centralized quality review process is part of the
                                   embedded quality measures process initiated in
                                   October 2003.
                                   5. Coordinate with the FinCEN to secure BSA examiner
                                      and RA access to SARs.
                                   Management’s Response: The Commissioner, SB/SE
                                   Division, has initiated a Memorandum of Understanding
                                   with the Director of the FinCEN to permit BSA examiners
                                   access to SARs for the purpose of MSB compliance checks.
                                   IRS senior executives will continue to pursue access to
                                   SARs for RAs in the regular examination program.
                                   In Calendar Year 2002, through a contractor, the FinCEN
Better Coordination With the
                                   conducted a major outreach and education initiative to
Financial Crimes Enforcement
                                   approximately 10,000 businesses. The FinCEN’s contractor
Network Is Needed
                                   was to identify and contact potential MSBs via mail. These
                                   businesses were not registered as MSBs but may have
                                   conducted business requiring registration. In FY 2002, the
                                   IRS was also conducting visits to approximately
                                   2,200 businesses in an attempt to identify MSBs and
                                   educate these businesses about the BSA requirements. IRS
                                   officials did not receive a list of the approximately
                                   10,000 businesses included in the FinCEN’s education and
                                   outreach effort until October 2002.
                                   Since the IRS did not know which businesses the FinCEN
                                   contacted, the IRS may have duplicated the FinCEN’s
                                   educational and outreach efforts. Without improved
                                   coordination between the FinCEN and the IRS, there is
                                   continued potential for duplication. If coordination between
                                   the IRS and the FinCEN had been more effective, IRS
                                   resources spent on education visits could have been put to
                                   better use.
                                   In FY 2003 the IRS transferred education and
                                   communication responsibilities from the BSA compliance
                                   program to its Taxpayer Education and Communication
                                   (TEC) function. The TEC function hired six AML
                                   Specialists for these purposes. Although registration of
                                   MSBs required to report and maintain records under the
                                   BSA is now a shared responsibility between the BSA
                                   compliance program and the TEC function, BSA examiners

                                                                                       Page 15
               Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                    Compliance Program

                                   are no longer performing one-on-one education visits. AML
                                   coordinators, however, continue to research various sources,
                                   such as the Internet and telephone directories, to identify
                                   potential MSBs requiring registration. Additionally, during
                                   BSA compliance checks, examiners ask MSB personnel
                                   about competitors and then determine if they are
                                   appropriately registered.
                                   According to the FY 2002 President’s Management Agenda
                                   (PMA), Federal agencies must find disciplined and focused
                                   approaches to address waste. This is a long-standing and
                                   substantial challenge. Federal agencies must take the steps
                                   necessary to become high-performing organizations. An
                                   expected result of the PMA is that organizations burdened
                                   with overlapping functions work more harmoniously. It is
                                   important that the IRS and the FinCEN coordinate to avoid
                                   duplication of efforts.

                                   Recommendation

                                   6. The Director, TEC, SB/SE Division, should coordinate
                                      with the FinCEN on all education and outreach efforts.
                                   Management’s Response: The Director, TEC, developed a
                                   comprehensive national AML strategy for FY 2004 and
                                   shared this strategy with the FinCEN. This plan will help
                                   ensure the key components of the SB/SE Division’s overall
                                   AML strategy parallel the FinCEN’s priorities and prevent
                                   duplicative efforts. In addition, the TEC function AML
                                   monthly contact report captures information about outreach
                                   events and is shared with the FinCEN to keep the FinCEN
                                   apprised of the TEC function’s efforts.
                                   For some BSA compliance checks, the IRS determines that
Few Referrals Were Made to the
                                   the compliance deficiencies warrant the assessment of civil
Financial Crimes Enforcement
                                   penalties. These cases are referred to the FinCEN for
Network for Civil Penalty
                                   penalty consideration. The FinCEN has the authority to
Consideration
                                   assess civil penalties for BSA violations by MSBs. In
                                   FY 2002, examiners in the BSA compliance program
                                   conducted approximately 3,400 compliance checks. Of
                                   these, only three were referred to the CI function for
                                   potential criminal investigation, and two were referred to the
                                   FinCEN for civil penalty consideration.


                                                                                         Page 16
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                    In our opinion, a total of only two referrals to the FinCEN
                    appears low considering the number of compliance checks
                    performed. With such a low referral rate, it is reasonable to
                    assume there is some undetected noncompliance.
                    According to IRS personnel, BSA examiners are reluctant to
                    submit cases to the FinCEN for civil penalty consideration
                    because they believe the FinCEN rarely assesses them on
                    MSBs.
                    From our discussions with AML coordinators and IRS
                    managers, we concluded there is a perception among
                    examiners that there is no need to refer cases to the FinCEN
                    because the FinCEN does not assess penalties. If this
                    perception is pervasive among examiners, civil penalties
                    will not be assessed on legitimate cases warranting them.
                    On the other hand, FinCEN officials told us that, because of
                    poor case documentation and inadequate evidence, the
                    referred cases do not provide the information necessary for
                    assessing civil penalties.
                    In our opinion, examiners should develop cases to their full
                    potential and make the necessary referrals without regard to
                    their perception of the FinCEN. The FinCEN has the
                    authority to assess these penalties, and the IRS has the
                    responsibility to provide the necessary information for
                    penalty consideration. Declining to refer cases to the
                    FinCEN because it does not assess penalties results in
                    inadequate enforcement of BSA regulations and allows
                    abusive MSBs to remain noncompliant.
                    We believe if the IRS effectively implements the
                    recommendations in the preceding sections of this report,
                    the number of cases referred to the FinCEN for civil penalty
                    consideration should increase.




                                                                         Page 17
                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                     Compliance Program

                                                                                            Appendix I


                        Detailed Objective, Scope, and Methodology

The overall objective of our audit was to determine whether the Internal Revenue Service (IRS)
effectively administers a program that ensures compliance with Bank Secrecy Act (BSA)1
reporting requirements. To accomplish this objective, we:
I.         Determined whether the IRS effectively implemented corrective actions to our prior
           reported audit findings2 by:
          A.        Determining whether the Small Business/Self-Employed (SB/SE) Division
                    effectively established program and oversight responsibility in the business
                    division.
          B.        Determining whether the SB/SE Division established appropriate
                    performance-based indicators in accordance with the Government
                    Performance and Results Act of 1993 (GPRA).3
          C.        Determining whether the SB/SE Division significantly expanded the
                    information available to BSA-covered businesses by developing and
                    delivering education/information packages to all identified or potential BSA
                    reporting entities.
          D.        Determining whether the selection process for BSA managers and examiners
                    provides the appropriate resources to the program.
          E.        Determining whether the BSA compliance program Management Information
                    Systems provide meaningful and useful information for effectively managing
                    the program.
II.        Determined whether the IRS efficiently and effectively planned for and implemented
           BSA compliance program changes to address new reporting requirements contained in
           the United and Strengthening America by Providing Appropriate Tools Required to
           Intercept and Obstruct Terrorism (USA PATRIOT) Act of 2001.4
          A.        Determined the new BSA reporting requirements in the USA PATRIOT Act.


1
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 31 U.S.C.). Regulations for the BSA, and other related statutes, are found in 31 C.F.R.
§ 103.11-103.77 (2000).
2
  The Program for Ensuring Compliance With Anti-Money Laundering Reporting Requirements Should Be Improved
(Reference Number 2001-40-024, dated December 2000).
3
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
4
  Pub. L. No. 107-56, 115 Stat. 321-327 (2001).
                                                                                                  Page 18
                  Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                       Compliance Program

           B.          Determined the extent and quality of coordination between the IRS and the
                       Financial Crimes Enforcement Network (the IRS’ key partner) in planning
                       and executing the IRS BSA compliance program.
III.        Determined whether the BSA compliance program effectively identifies the
            population of Nonbank Financial Institutions (NBFI), conducts compliance visits in
            accordance with established procedures, and refers noncompliant NBFIs for
            appropriate sanctions.
           A.          Interviewed management to discuss and review the process for identifying
                       covered businesses.
           B.          Determined whether new procedures were developed to better identify
                       potential terrorist-related activity connected with noncompliance by NBFIs.
           C.          Obtained and reviewed procedures and guidelines for performing compliance
                       checks.
           D.          Assessed the quality of compliance checks by selecting a judgmental5 sample
                       of 76 cases from 3 Area Offices6 and reviewing case files.
           E.          Analyzed compliance visit results to determine the impact of the compliance
                       program.
           F.          Determined follow-up visit requirements, if any.
           G.          Determined whether additional data-driven criteria could be applied to better
                       focus BSA compliance efforts.




5
  We judgmentally selected a sample of 76 cases closed in Calendar Year (CY) 2002 from 3 Area Offices. Area
Offices A and C (48 and 412 closed cases in CY 2002, respectively) had full-time BSA Examination groups, and
Area Office B (77 closed cases in CY 2002) worked cases as collateral assignments. Although we did not intend to
project our results, we believe this sample adequately reflects results from the universe of 547 cases for the Offices.
6
  In January 2002, the SB/SE Division’s Compliance function, along with other functions in the IRS, transitioned
into a new organizational structure that instituted 16 Area Offices nationally. These Area Offices basically replaced
the old district and regional structure. We visited three Area Offices for this review.




                                                                                                              Page 19
              Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                   Compliance Program

                                                                                 Appendix II


                           Major Contributors to This Report

Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Philip Shropshire, Director
Preston Benoit, Audit Manager
Cynthia Dozier, Senior Auditor
James S. Mills, Jr., Senior Auditor
Erlinda Foye, Management Analyst




                                                                                       Page 20
             Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                  Compliance Program

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Deputy Director, Compliance Policy, Small Business/Self-Employed Division
       SE:S:C:CP




                                                                                  Page 21
                  Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                       Compliance Program

                                                                                                   Appendix IV


                             Bank Secrecy Act1 Violations and Penalties

            Violation                 Persons Subject to                     Penalty                Authority
                                           Penalty
Failure to comply with any record        Any domestic             Not to exceed $1,000.             31 U.S.C. §
keeping requirement for a                financial institution.                                     5321(a)(1);
financial institution except             Any partner, director,                                     12 U.S.C.
31 C.F.R. § 103.32.                      officer, or employee                                       § 1829b(j);
                                         who willfully                                              31 C.F.R.
                                         participates in the                                        § 103.57(c)
                                         violation.

Failure to comply with                   Any domestic             Up to the amount of the           31 U.S.C. §
requirements to report                   financial institution.   currency or monetary              5321(a)(2);
transportation of monetary               Any partner, director,   instruments transported,          31 C.F.R.
instrument (CMIR)2 found in              officer, or employee     mailed, or shipped less any       § 103.57(d)
31 U.S.C. § 5316;                        who willfully            amount forfeited under the
31 C.F.R. § 103.23.                      participates in the      authority of 31 C.F.R.
                                         violation.               § 103.58.

Failure to comply with any               Any domestic             Not to exceed the greater of:     31 U.S.C. §
reporting requirement for                financial institution.   the amount involved in the        5321(a)(1);
financial institutions, including        Any partner, director,   transaction (not to exceed        31 C.F.R.
report retention requirements.           officer, or employee     $100,000) or $25,000.             § 103.57(f)
Exceptions:                              who willfully
                                         participates in the
    Failure to report a foreign          violation.
    account 31 U.S.C. § 5314;
    31 C.F.R. § 103.24.
    Failure to report a transaction
    with a foreign financial
    agency 31 U.S.C. § 5315;
    31 C.F.R. § 103.25.




1
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 31 U.S.C.). Regulations for the BSA, and other related statutes, are found in
31 C.F.R. § 103.11-103.77 (2000).
2
  Currency and Money Instrument Report.
                                                                                                              Page 22
                   Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                        Compliance Program

            Violation                      Persons Subject to                     Penalty                 Authority
                                                Penalty
Any violation of 31 U.S.C.                Any person.                       Not to exceed the amount      31 U.S.C. §
§ 5324, 31 C.F.R. § 103.63 - that                                           of coins and currency         5321(a)(4);
is for the purpose of evading                                               involved in the               31 C.F.R.
Currency Transaction Report                                                 transaction with respect to   § 103.57(e)
reporting requirements or special                                           which such penalty is
reports that may be required under                                          imposed.
31 U.S.C. § 5325(b) relating to                                             The amount of any civil
the sale of monetary instruments,                                           penalty assessed shall be
or reports or records required                                              reduced by the amount of
under a geographical targeting                                              any forfeiture in
order, or record keeping                                                    connection with the
requirements imposed by any                                                 transaction for which the
regulation prescribed under                                                 penalty was imposed.
section 21 of the Federal Deposit
Insurance Act or section 123 of
Public Law 91-508, that is
basically all Bank Secrecy Act
record keeping requirements. The
prohibited actions include causing
or attempting to cause a domestic
financial institution to fail to file a
report or maintain a record or to
file or maintain a report or record
containing a material omission or
misstatement of fact or
structuring.

Failure to report a foreign account       Any person.                   Not to exceed the greater of:     31 U.S.C. §
under 31 C.F.R. § 103.24 or                                             an amount equal to the balance    5321(a)(5);
maintain related records under                                          of the account at the time of     31 C.F.R.
31 C.F.R. § 103.32.                                                     the violation (not to exceed      § 103.57(g)
                                                                        $100,000) or $25,000.

Failure to report a transaction with      Any person.                   Not to exceed the greater of:     31 U.S.C. §
a foreign financial agency                                              the amount (not to exceed         5321(a)(5);
required by 31 C.F.R. § 103.25.                                         $100,000) of the transaction or   31 C.F.R.
                                                                        $25,000.                          § 103.57(g)

Failure to comply with any                Any person who is             Up to $5,000 per day per          31 U.S.C.
requirement of 31 U.S.C. § 5330           required to comply. This      violation.                        § 5330 (e);
or 31 C.F.R. § 103.41, that is            includes any person who                                         31 C.F.R.
registration of money services            owns up to 5 percent of                                         § 103.41(e)
businesses. This includes failure         corporate stock, a partner,
to retain a copy of the registration.     or other owner of a
                                          money services business.




                                                                                                                 Page 23
                 Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                      Compliance Program

           Violation                 Persons Subject to                    Penalty                 Authority
                                          Penalty
Failure to comply with a               Any domestic             The penalties are the same as      31 U.S.C.
geographic targeting order issued      financial institution.   those for record keeping and       § 5321(a);
under 31 U.S.C. § 5326;                Any partner, director,   reporting violations in general.   31 C.F.R.
31 C.F.R. § 103.26.                    officer, or employee                                        § 103.57
                                       who willfully
                                       participates in the
                                       violation.

Failure to comply with any special     Any domestic             An amount equal to not             31 U.S.C. §
measures order issued under            financial institution.   less than 2 times the amount       5321(a)(7);
31 U.S.C. § 5318A.                     Any partner, director,   of the transaction but not more    31 C.F.R.
                                       officer, or employee     than $1,000,000.                   § 103.57
                                       who willfully
                                       participates in the
                                       violation.

Failure to comply with the             Any financial            $25,000 per day.                   31 U.S.C. §
information sharing rules required     institution defined in                                      5321(a)(1);
by Sec. 314 of the USA                 31 C.F.R. § 103.110.                                        31 C.F.R.
PATRIOT Act3 and found at              Any partner, director,                                      § 103.57
31 C.F.R. § 103 Subpart H.             officer, or employee
                                       who willfully
                                       participates in the
                                       violation.

Failure to establish a compliance      Any financial            $25,000 per day.                   31 U.S.C. §
program under 31 U.S.C.                institution defined in                                      5321(a)(1);
§ 5318(h) and various regulations      31 U.S.C. § 5312(a).                                        31 C.F.R.
appearing at 31 C.F.R. Subpart I.      Any partner, director,                                      § 103.57
                                       officer, or employee
                                       who willfully
                                       participates in the
                                       violation.




3
 United and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
Act of 2001, Pub. L. No. 107-56, 115 Stat. 321-327 (2001).



                                                                                                          Page 24
                  Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                       Compliance Program

           Violation                  Persons Subject to                    Penalty                Authority
                                           Penalty
Failure to comply with due              Any financial             An amount equal to not less      31 U.S.C. §
diligence requirements for banks,       institution included in   than 2 times the amount of the   5321(a)(7);
brokers, and some other financial       31 U.S.C. § 5318(i).      transaction but not more than    31 C.F.R.
institutions set forth at 31 U.S.C.     Any partner, director,    $1,000,000.                      § 103.57
§ 5318(i) and at 31 C.F.R.              officer, or employee
§§ 103.181-.183.                        who willfully
                                        participates in the
                                        violation.




                                                                                                          Page 25
                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                     Compliance Program

                                                                                               Appendix V


                                  History of the Bank Secrecy Act

In October 1970, in response to evidence from the United States (U.S.) law enforcement
community that bank secrecy was impeding the investigation of organized crime and other
criminal activities, the Congress enacted legislation commonly referred to as the Bank Secrecy
Act (BSA).1 The BSA is designed to assist in the detection and prevention of criminal activity
by creating a paper trail from financial institutions back to the criminal organization. It
authorizes the Department of the Treasury to require banks and other financial institutions to
retain designated financial transaction records that the Secretary deems useful in criminal, tax,
and regulatory investigations. The BSA also authorizes the Secretary to require financial
institutions and, in some cases, other businesses and private citizens, to file reports on a wide
variety of financial transactions that establish and preserve a financial trail for investigators to
follow as they track criminals, their activities, and their assets.
Since 1970, the BSA has been amended a number of times to give the Department of the
Treasury a wider variety of regulatory tools to combat money laundering. In 1986, money
laundering was made a crime in its own right in recognition of the growth and seriousness of the
problem. In 1992, the Secretary was authorized to promulgate regulations requiring financial
institutions to establish anti-money laundering programs.2 Currently, many types of financial
institutions are subject to regulations promulgated under the BSA, including:
    •   Approximately 24,000 depository institutions, including state and Federally chartered
        commercial banks, savings banks and other thrifts, and credit unions.
    •   An estimated 160,000 Money Services Businesses, comprised of such diverse financial
        providers as check cashers; currency dealers or exchangers; issuers, sellers, and
        redeemers of traveler’s checks, money orders, and stored value; and money transmitters.
    •   Some 40,000 U.S. Post Office sites.
    •   Approximately 600 casinos or other gaming organizations located in some 30 states and
        territories and on tribal lands.
    •   Approximately 5,000 securities firms.


1
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 31 U.S.C.). Regulations for the BSA, and other related statutes, are found in 31 C.F.R.
§ 103.11-103.77 (2000). Titles I and II of Public Law 91-508, as amended, codified at 12 U.S.C. § 1829b,
12 U.S.C. §§ 1951-1959, and 31 U.S.C. §§ 5311-5330. Regulations implementing Title II of the BSA (codified at
31 U.S.C. §§ 5311-5330) appear at 31 C.F.R. Part 103. The Secretary has delegated the authority to administer
Title II of the BSA to the Director of the Financial Crimes Enforcement Network.
2
  See Money Laundering Control Act of 1986, Pub. L. No. 99-570 (1986), and Annunzio-Wylie Anti-Money
Laundering Act, Pub. L. No. 102-550 (1994).
                                                                                                      Page 26
                 Additional Efforts Are Needed to Improve the Bank Secrecy Act
                                      Compliance Program

    •   An undetermined number of other entities, such as insurance companies, that may
        become subject to the BSA regulations under BSA § 5312 or as a result of the United and
        Strengthening America by Providing Appropriate Tools Required to Intercept and
        Obstruct Terrorism (USA PATRIOT) Act of 2001.3
The BSA authorizes the Secretary of the Treasury, inter alia, to issue regulations requiring
financial institutions and other persons to keep records; file reports that are determined to have a
high degree of usefulness in criminal, tax, regulatory, intelligence, and counter-terrorism matters;
and implement counter-money laundering programs and compliance procedures. The two
components of the Department of the Treasury with significant responsibilities for the
administration of the BSA – which is part of the substantial role they both play in the fight
against many forms of financial crime – are the Internal Revenue Service (IRS) and the Financial
Crimes Enforcement Network. The Department of the Treasury relies on the expertise and
resources of each bureau to perform the many functions necessary to carry out the purposes of
the BSA.
The financial information reported on BSA forms is used by law enforcement as one of many
tools to follow the money trail and build investigations. Over time, the BSA has become an
important tool in the fight against money laundering and, with passage of the USA PATRIOT
Act, a vital part of the effort to cut off and disrupt the financial infrastructure of international
terrorism. Thus the IRS, with both civil and criminal divisions, is in the unique position of being
a consumer of BSA information as well as playing an important role in administering the
regulatory infrastructure that produces it.




3
  Pub. L. No. 107-56, 115 Stat. 321-327 (2001). For purposes of the BSA, 31 U.S.C. § 5312(a)(2) (2003) defines
financial institutions. Section 352 of the USA PATRIOT Act requires all such financial institutions as defined by
the BSA to establish antimoney laundering programs unless subject to exemption by the Secretary. Section 356
permits the Secretary to extend suspicious activity reporting requirements to commodities brokers and requires the
Secretary to study whether these requirements also should be extended to investment companies.
                                                                                                           Page 27
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program

                                                            Appendix VI


      Management’s Response to the Draft Report




                                                                 Page 28
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program




                                                                Page 29
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program




                                                                Page 30
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program




                                                                Page 31
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program




                                                                Page 32
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program




                                                                Page 33
Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Compliance Program




                                                                Page 34
